  Board of Governors of the Federal Reserve System




REPORT ON THE AUDIT OF THE BOARD’S
 INFORMATION SECURITY PROGRAM




    OFFICE OF INSPECTOR GENERAL


                                             September 2008
                                       September 30, 2008


Board of Governors of the Federal Reserve System
Washington, DC 20551

Dear Members of the Board:

      The Office of Inspector General is pleased to present its Report on the Audit of the Board’s
Information Security Program. We performed this audit pursuant to requirements in the Federal
Information Security Management Act (FISMA), Title III, Public Law 107-347 (December 17,
2002), which requires each agency Inspector General (IG) to conduct an annual independent
evaluation of the agency’s information security program and practices. Our specific audit
objectives, based on the legislation’s requirements, were to evaluate the effectiveness of security
controls and techniques for selected information systems and to evaluate compliance by the
Board of Governors of the Federal Reserve System (Board) with FISMA and related information
security policies, procedures, standards, and guidelines. We conducted our audit from May
through September 2008 in accordance with generally accepted government auditing standards.

      To evaluate security controls and techniques, we review controls over Board applications
on an ongoing basis. During the past year, we issued security control review reports for three of
the Board’s major applications: a bundle of subsystems referred to as the EGov Systems, the
Federal Reserve Integrated Records Management Architecture (FIRMA), and the Currency
Ordering System (COS). We also issued a report on the controls of two third-party applications
operated by the Federal Reserve Bank of Boston in support of the Board’s supervision and
regulation function. Our control tests identified areas where controls need to be strengthened.
Given the sensitivity of the issues involved with these reviews, we provided the specific results
to management in separate restricted reports. We performed our application control testing
based on selected controls identified in the National Institute of Standards and Technology
(NIST) Special Publication 800-53, Revision 2, Recommended Security Controls for Federal
Information Systems (SP 800-53). The controls are divided into “families” (such as access
controls, risk assessment, and personnel security) and include controls that can be categorized as
system-specific or common (that is, applicable across agency systems). Consequently, although
our focus was on evaluating specific applications, we also assessed some of the broader security
controls that affect most, if not all, of the applications.
Members of the Board                            2 of 21                        September 30, 2008



      In March 2008, we issued a restricted report on these common security controls that
identified opportunities for the Board’s Chief Information Officer (CIO) to enhance and enforce
existing policies and procedures, and to provide additional guidance that would assist system
owners in implementing security controls under the Board’s security program. We also followed
up on open recommendations from prior security control reviews.

      To evaluate the Board’s compliance with FISMA and related policies and procedures, we
reviewed components of the Board’s certification and accreditation (C&A) process, including
risk assessments, security plans, and security assessments. As part of the agency’s annual
FISMA reporting, the Office of Management and Budget (OMB) requests a specific response
from both the agency and the OIG on certain security-related processes. Our work included
analyzing the Board’s security-related processes for security awareness and training, remedial
action monitoring, incident response, configuration management, controls over personally
identifiable information (PII), and privacy impact assessments (PIA). Our response will be
provided to OMB by the Chairman under separate cover.

      Our prior annual FISMA audits of the Board’s information security program contained
recommendations focused on bringing the Board’s program into compliance with FISMA and
NIST requirements. In our 2007 Report on the Audit of the Board’s Information Security
Program, we noted the Board had made progress toward implementing a structured information
security program as outlined by FISMA. At the time of our report in 2007, we concluded that
the primary challenge going forward was for the Board’s CIO and Information Security Officer
(ISO) to ensure that all aspects of the revised information security program were fully and
consistently implemented across the systems supporting divisions and offices—as well as for
third-party applications supporting Board programs and operations—and that controls were
implemented correctly, working as intended, and producing the desired results.

      The Board continues to advance and improve its information security program. During
2008, the Board enhanced its annual security awareness training and its processes for tracking
security-related issues and initiatives. It also certified and accredited minor applications and
subsystems by bundling the systems under the security plans of (1) a GSS; (2) a major
application that provides a significant portion of its security control requirements; or (3) other
minor applications to form a single major application. We found that the Board’s inventory has
remained stable from 2007, and that the bundling of minor applications and subsystems is a
reasonable approach to implement the Board’s security program.

     During 2008, the ISO continued to update the Board’s security program and related
guidance to maintain a FISMA-compliant approach to managing and evaluating each Board
information system throughout its lifecycle. As shown in Figure 1, the Board has established
processes throughout the system lifecycle to lead to the certification and accreditation (C&A) of
the Board’s major applications and General Support Systems (GSS).
Members of the Board                                  3 of 21                                 September 30, 2008


Figure 1. Board’s IT Security Framework for the Information System Security Lifecycle1




      However, our review of the certification and accreditation of major applications and the
GSS supported by the Division of Information Technology (IT GSS), the Board’s central GSS,
identified opportunities for the Board to improve its risk assessment process and security
assessment testing. We found that the risk assessments can be improved to explicitly identify the
residual risk remaining after implementing minimum baseline controls. We also found that the
security assessments performed as part of the C&A process need to be strengthened to include
necessary and sufficient independent testing to provide the system owners with assurance that
information security controls for these systems are effectively implemented and functioning as
intended. Our report contains two recommendations to the CIO designed to ensure that (1) risk
assessments adequately identify, evaluate, and document the level of risk to an information
system based on potential threats, vulnerabilities, and currently implemented or planned controls,
1
       Each process in the lifecycle builds on the previous process, and any deficiency in one process will affect
subsequent processes. For example, if the risk assessment does not adequately evaluate the level of residual risks
remaining after the baseline controls are implemented, additional controls will not be identified as needed to lower
the residual risk to an acceptable level, the security plan will not adequately describe how the risk is being
addressed, and the security assessment will not provide the necessary assurances that the system is meeting its
security requirements.
Members of the Board                           4 of 21                       September 30, 2008


to determine if additional controls are needed; and (2) security assessments include necessary
and sufficient independent testing to support the authorization for the system to operate, and
provide the authorizing official and the Board assurances that information security controls for
these systems are implemented correctly, working as intended, and producing the desired results.
Appendix 1 contains our analysis of the Board’s progress in implementing key FISMA
requirements.

        We provided our draft report for review and comment to the director of the Division of
Information Technology (IT), in her capacity as the Chief Information Officer for FISMA. Her
response is included as appendix 2. In her response, the director concurred with our
recommendations. We will follow up on actions taken regarding our recommendations as part of
future audit and evaluation work related to information security.

      The principal contributors to this report are listed in appendix 3. We are providing copies
of this audit report to Board management officials. In addition, the Chairman will provide the
report to the director of OMB, as required by FISMA. The report will be added to our publicly-
available web site and will be summarized in our next semiannual report to the Congress. Please
contact me if you would like to discuss the audit report or any related issues.

                                           Sincerely,

                                            /signed/

                                     Elizabeth A. Coleman
                                       Inspector General

Attachments

cc:   Mr. Stephen Malphrus
      Ms. Maureen Hannan
      Mr. Geary Cunningham
      Mr. Raymond Romero
APPENDIXES
                                                                                                 APPENDIX 1


Appendix 1 – OIG Analysis of the Board’s Progress in Implementing Key
             FISMA Requirements

Policies and Procedures

          Requirement:
                Information security policy is an essential component of an information security
                program. An agency’s information security policies should be based on a
                combination of relevant legislation, such as FISMA; applicable standards, such as
                NIST Federal Information Processing Standards (FIPS) and guidance; and
                internal agency requirements. Supporting guidance and procedures on how to
                implement specific controls effectively across the enterprise should be developed
                to augment an agency’s security policy. To ensure that information security does
                not become obsolete, agencies should implement a review and revision process
                for its policies and procedures.

          Progress to Date:
                The ISO and his staff have completed a significant amount of work over the past
                few years to develop a security program that complies with NIST requirements.
                During the past year, the ISO has continued to enhance the security program to
                reflect changes in how the Board accounts for information assets, tracks the
                security compliance status of each system, and continues to develop policy and
                procedures for safeguarding personally identifiable information. To assist system
                owners in bundling minor applications and subsystems into the security plan of a
                major application or GSS that provides a significant portion of its security control
                requirements, the ISO developed an inventory guide that includes a decision tree
                for determining how the system should be included in the inventory. The ISO
                also updated the control baseline with instructions for subsystems, enhanced the
                risk assessment guide to reflect new system types, and developed a Bundled
                Subsystem Security Plan template.

                 In addition, the Board continues to develop policy and procedures for
                 safeguarding PII. In the past year, the Board issued two new management
                 policies that address privacy and information security issues. The “Policy for
                 Handling Personally Identifiable Information” defines personally identifiable
                 information and how to handle it at the Board; the updated “Data-Breach-
                 Notification Policy and Plan” outlines the procedures that are to be followed if a
                 loss of personally identifiable information occurs. The ISO has also issued a
                 Mobile Code Policy, and a Media Disposal and Sanitation Policy that describe the
                 process that the Board uses to sanitize and dispose of digital media that is not
                 otherwise subject to particular restrictions. 2

      2
         Mobile Code, also known as Active Content, is defined as small pieces of software or program code that are
automatically downloaded onto and executed on a user’s PC, possibly without the explicit installation or execution
by the recipient.



                                                     7 of 21
             The IT security staff continues to conduct training for system owners and
             developers. The 2008 FISMA training consisted of sessions focused on the
             improvements and changes from last year’s documents, addressing bundled
             subsystems. For those staff who were new to FISMA, an additional session was
             held to provide a step-by-step walk-through of how to complete FISMA
             documents for a sample system.

      Work to Be Done:
            An agency will always need to update and refine its information security program
            and the related policies and procedures as the program evolves and as NIST and
            OMB issue new guidance. To achieve this objective, agencies should implement
            a review and revision process for their policies and procedures to ensure that
            information security does not become obsolete and that the policies and
            procedures are working effectively to produce the desired results. While the
            Board does not have a formal review and revision process, we found that the
            Board has responded appropriately when OMB and NIST have issued changes to
            FISMA requirements. We will continue to review the need for additional
            guidance as part of our ongoing work related to information security.

Application Inventory

      Requirement:
            FISMA requires the head of each agency to develop and maintain an inventory of
            major information systems operated by or under the control of the agency. The
            inventory forms the basis for meeting the FISMA periodic testing requirement
            and should identify interfaces between each system and other systems or
            networks. The inventory should also identify system criticality and risk levels.
            OMB expects agencies to have an inventory that is based on work completed in
            developing an enterprise architecture.

      Progress to Date:
            The Board’s FISMA inventory has remained stable over the past year, but the
            Board continues to refine how it accounts for the certification and accreditation of
            minor applications and subsystems. During the past year, the Board has focused
            on bundling minor applications and subsystems into the security plans of either a
            GSS, a major application that provides a significant portion of its security control
            requirements, or other minor applications to form a single major application.
            According to the Board, bundling is a common practice and is encouraged to
            minimize the redundancy of security plan documentation. To bundle an
            application into a GSS under Board criteria, the application must have an impact
            rating of low or moderate, and the system owners must have reviewed the system-
            specific baseline of controls for the application and have documented in the risk
            assessment that the application relies only on the IT GSS for its non-system
            specific security controls (the system cannot rely on more than one GSS for its
            controls). We reviewed the rationale for bundling the minor applications into a




                                           8 of 21
                 major application and determined that it was a reasonable approach to implement
                 the Board’s security program.

                 Our 2005 FISMA report recommended that the Board identify all information and
                 information systems supporting its operations and assets, including those at
                 Reserve Banks and other third parties, and ensure full and timely compliance with
                 FISMA’s legislative requirements and related information security policy and
                 guidance. We did not close the recommendation in 2006 or 2007 because the
                 Board still had work remaining to fully implement the Board’s security program
                 requirements for all systems on the inventory.3 Subsequently, the Board has
                 certified and accredited the IT GSS and major applications; in our opinion, this is
                 sufficient action to close this recommendation. However, as discussed below, we
                 believe that the Board can improve its risk assessment process and security
                 assessment testing.

          Work to Be Done:
                Going forward, as new minor applications and subsystems are bundled into a
                GSS, the ISO will also need to ensure that controls are properly documented,
                implemented, and tested to provide the appropriate level of security. As the ISO
                continues to review the inventory and further implement the bundling guidance,
                we will evaluate the appropriateness of any revisions to the Board’s application
                inventory.

                 As we reported last year, our 2005 information security audit report also
                 contained a recommendation that the Board establish full-time, independent CIO
                 and ISO positions that have the authority to direct and enforce FISMA
                 compliance for all information and information systems that support Board
                 operations and assets, including those provided by the Reserve Banks and other
                 third parties. In responding to our recommendation, the Board’s previous CIO for
                 FISMA stated that the Board will continue to evaluate and make changes as
                 appropriate to the organizational structure in light of the final inventory and any
                 additional direction from OMB. Although the Board has finalized its inventory
                 and has implemented components of its security program for systems maintained
                 within the Board, our security control reviews have identified that the CIO and
                 ISO need to ensure that system owners are clearly identifying system boundaries,
                 and assessing the risk of relying on controls provided by entities that have not
                 been certified or accredited in accordance with the Board’s security program. We
                 will continue to hold this recommendation open until the CIO has demonstrated
                 the authority to fully implement the Board’s security program for all information
                 systems that support Board operations and assets, including those provided by the
                 Reserve Banks and other third parties.


      3
        See the following OIG reports: Audit of the Board’s Information Security Program, dated October 2005;
Audit of the Board’s Information Security Program, dated September 2006; and Audit of the Board’s Information
Security Program, dated September 2007.



                                                    9 of 21
Periodic Risk Assessments

      Requirement:
            FISMA requires periodic assessments of the risk and magnitude of the harm that
            could result from the unauthorized access, use, disclosure, disruption,
            modification, or destruction of information and information systems that support
            the operations and assets of the agency.

      Progress to Date:
            The Board has developed a FISMA-compliant certification and accreditation
            process that requires system owners to determine the security categorization and
            impact rating of their system; apply minimum or a baseline set of NIST controls;
            perform a risk assessment to determine what residual risks remain after the
            baseline controls are implemented; and develop a security plan based on the
            complete set of controls needed.

             To assist system owners, the ISO has issued guidance, including a standard
             template, and developed a set of minimum controls baseline that includes controls
             required by NIST Special Publication 800-53. The baseline identifies where the
             control is to be implemented (by the system or GSS), and the ISO provides
             information for the IT GSS controls and a template for use in documenting system
             specific controls. For major applications and stand-alone minor applications, the
             risk assessment consists of system owners documenting how the system specific
             controls are met and ensuring that the information on the IT GSS controls remains
             accurate, making revisions where necessary. For bundled subsystems, system
             owners are to review the information provided for the IT GSS and for any control
             that has not been documented, and provide the appropriate information or
             justification for the unique system controls in the bundled subsystem security
             plan. We judgmentally selected seven subsystems bundled into the IT GSS and
             verified that each had a risk assessment and a bundled subsystem security plan
             completed. The security plan included an assertion by the system owner that the
             security controls provided by the GSS had been reviewed.

      Work to be done:
            As part of our review of the Board’s C&A process, we reviewed a sample of ten
            major applications that had been certified and accredited to operate between June
            2007 and March 2008. We found that each application applied the minimum or
            baseline set of NIST controls and had completed a risk assessment template.
            However, we found no documentation or evidence that system owners are fully
            complying with the Board’s risk assessment process and identifying the residual
            risk that remains after implementing the minimum set of controls defined in the
            Board’s security control baseline. System owners are documenting that their
            system is meeting the minimum controls, but the security control baselines are not
            designed to protect against all threats. A comprehensive risk assessment should
            explicitly address the system owner’s analysis of potential system vulnerabilities
            and demonstrate a thorough understanding of any associated risk. We believe that



                                          10 of 21
             the CIO needs to ensure that risk assessments are adequately identifying,
             evaluating, and documenting the level of risk to an information system based on
             potential threats, vulnerabilities and currently implemented or planned controls, to
             determine whether additional controls are needed.

             Based on recommendations from our security control reviews, the ISO agreed to
             update the Risk Assessment Guide for Board Information Systems with additional
             guidance to ensure that system owners more effectively identify system
             boundaries and more fully address additional risks that may result when
             interconnections to other systems are established. The ISO will also perform a
             common risk assessment addressing Reserve Bank direct access to Board
             Systems. We will continue to review implementation of the risk assessment
             process as part of our future application security control reviews.

             Recommendation 1: We recommend that the CIO ensure that risk
                              assessments are adequately identifying, evaluating, and
                              documenting the level of risk to an information system
                              based on potential threats, vulnerabilities and currently
                              implemented or planned controls, to determine whether
                              additional controls are needed.

Security Plans

      Requirement:
            FISMA requires that agencies develop security plans for each system in the
            inventory. The system security plans should be based on the agencywide plan,
            provide an overview of the system’s specific security requirements, and describe
            the controls in place or planned for meeting those requirements. System security
            plans should delineate the responsibilities, expected behavior, and training
            requirements for all individuals who access the system, and describe appropriate
            controls for interconnection with other systems.

      Progress to Date:
            The Board’s Security Program requires the system owner to develop a security
            plan based on the complete set of controls required for the system (that is, the
            baseline controls and any additional controls identified during the risk assessment
            process). To assist system owners, the ISO has developed security plan templates
            for major applications, general support systems, and bundled subsystems. In
            addition, the ISO has updated the security plan template to document whether the
            system contains PII.

             As previously described in the Periodic Risk Assessment section, system owners
             are required to analyze the template information to ensure that controls are
             sufficient for their systems. The baseline becomes part of the security plan.
             Approval of a security plan signifies approval of all documents referenced by the
             security plan and baseline. The bundled subsystem security plan requires system



                                           11 of 21
             owners to assert that all security controls provided by the control baseline have
             been reviewed to determine that the subsystem relies upon the provided GSS
             security controls, and that the controls satisfy all subsystem control requirements
             with the exception of any other specific controls documented.

             As part of our review of the Board’s C&A process we judgmentally selected a
             sample of twenty-six subsystems and minor applications that have been bundled
             into nine major applications, and found each of the system owners of the major
             applications had developed security plans that include the subsystems. We also
             selected a sample of seven subsystems that had been bundled into the IT GSS and
             verified that each had a risk assessment and a bundled subsystem security plan
             completed.

      Work to be done:
            Full implementation of the security planning process will not occur until all plans
            provide an overview of the system’s specific security requirements, and describe
            the controls in place or planned for meeting those requirements. As discussed
            under the risk assessment section, if the control baseline and risk assessment is
            inadequate or contains errors, the security plans will not fully describe the
            system’s security environment or identify other needed controls.

             In addition, our security control reviews identified opportunities for the ISO to
             enhance security plans by including technical details for the servers that could
             affect a specific application. This enhancement would allow system owners to
             understand the risks and mitigating factors of certain design architectures and
             identify the software packages installed on the servers supporting their
             applications. We will review completed security plans during future security
             control reviews.

Periodic Testing and Evaluation

      Requirement:
            FISMA requires periodic testing and evaluation of the effectiveness of an
            agency’s information security policies, procedures, and practices. The evaluation
            includes testing of the management, operational, and technical controls for each
            system identified in the agency’s inventory and should be performed on a risk-
            based frequency, but not less than annually. Each system must also undergo a
            periodic certification and accreditation to ensure that the individual responsible
            for the system has performed activities needed to ensure that security controls are
            commensurate with the risk and magnitude of the harm resulting from
            unauthorized access, use, disclosure, disruption, modification, or destruction of
            information contained in the system. A C&A should be completed before a
            system is initially placed into operation, and every three years thereafter, of if the
            system undergoes a significant change.




                                            12 of 21
Progress to Date:
      The Board’s security program requires the certification and accreditation of a
      system based on a system security plan, security assessment report, and plan of
      actions and milestones (POA&M). The security assessments are to be performed
      by an independent certification agent and directly support the security
      accreditation by providing authorizing officials with the information necessary to
      make credible, risk-based decisions on whether to place an information system
      into operation or to permit an existing system to continue its current operation.

       The ISO has issued security certification review reports for the IT GSS and major
       applications on the Board’s inventory. Minor applications and subsystems
       bundled into the security plans of a major application or GSS are certified with
       the major application or GSS, and will be tested as part of that major application
       or GSS.

       To provide consistency and document the security review, the ISO has developed
       C&A testing steps for the certification agent to follow and document their work.
       We compared the certification test steps to the Board’s baseline and found that the
       test steps incorporated the baseline controls implemented by the GSS and the
       system. The test steps included controls for applications at all impact levels (low,
       moderate, high).

Work to be done:
      As part of our review of the Board’s C&A process, we reviewed both the security
      assessments for a sample of ten major applications that had been certified and
      accredited to operate between June 2007 and March 2008, as well as components
      of the 2007 security assessment of the IT GSS. We found a lack of necessary and
      sufficient independent testing conducted by the certification agent that is
      supposed to provide the system owners assurance that information security
      controls for these systems are effectively implemented and functioning as
      intended. The certification testing focused on validating that the system owner
      provided correct information for controls in the baseline and that the control
      exists, not whether the control is operating effectively. We also found that the
      C&A test step documentation was not centrally maintained or always retained.
      We believe that the CIO needs to ensure that security assessments include
      necessary and sufficient independent testing to support the authorization to
      operate, and to provide the authorizing official and the Board assurances that
      information security controls for these systems are effectively implemented and
      functioning as intended.

       The IT GSS has been separated into nineteen components and the ISO has
       developed individual security control baselines for each component. The ISO
       plans to conduct reviews over the next three years on the various components and
       subsystems. To ensure that all systems are appropriately tested, the ISO will
       need to document a three-year review schedule for the nineteen components and




                                     13 of 21
             ensure that each of the bundled minor applications and subsystems will be tested
             within the components.

             In addition, the IT GSS and Management GSS security plans encompass:
             common controls provided by the CIO and ISO offices for all Board information
             systems; infrastructure component specific controls; and common controls
             provided by infrastructure components to Board information systems. Since all
             systems at the Board rely on these common controls, the ISO will need to
             coordinate the results of the security testing with system owners.

             Recommendation 2: We recommend that the CIO ensure that security
                               assessments include necessary and sufficient
                               independent testing to support the authorization to
                               operate, and provide the authorizing official and the
                               Board assurances that information security controls for
                               these systems are implemented correctly, working as
                               intended, and producing the desired results.

Planning, Implementing, Evaluating, and Documenting Remedial Actions

      Requirement:
            FISMA requires agencies to establish a process for addressing any deficiencies in
            information security policies, procedures, and practices. To implement this
            requirement, OMB has issued guidance requiring agencies to prepare and submit
            POA&Ms for all programs and systems where an information technology security
            weakness has been found. The POA&Ms should include all security weaknesses
            found during any review done by, for, or on behalf of the agency, including
            Government Accountability Office audits, financial statement audits, and critical
            infrastructure vulnerability assessments. In addition, program officials should
            regularly update the CIO on their progress in implementing corrective actions to
            better enable the CIO to monitor agencywide remediation efforts and provide the
            agency’s quarterly POA&M update to OMB.

      Progress to Date:
            The ISO continues to ensure that divisions accurately update their division-level
            information and has developed a centralized web interface to manage POA&M
            items. We believe that this is a significant improvement that will assist the ISO in
            tracking security-related issues and addressing deficiencies. Our review of the
            quarterly POA&Ms identified that the OIG’s security control review
            recommendations have been placed on appropriate division POA&Ms, and the IT
            Division’s POA&M has been expanded to track all security related initiatives in
            addition to security weaknesses. The ISO has stated that he regularly updates the
            CIO on the division’s progress in implementing corrective actions.




                                           14 of 21
      Work to be done:
            Our security control reviews identified two POA&M items that had been removed
            from the POA&M without corrective actions being documented and validated; a
            recommendation was addressed to the system owner. As part of future security
            assessments, we believe that the certification testing needs to ensure that
            previously identified vulnerabilities that have been removed from the POA&M
            have had necessary and sufficient action taken to resolve the vulnerabilities. We
            will continue to review the Board’s tracking and resolution of POA&M items as
            part of our ongoing FISMA related audit work.

Security Awareness Training and Training Personnel with Significant Security
Responsibilities

      Requirement:
            FISMA requires that an agency’s information security program include security
            awareness training to inform all personnel, including contractors and other users
            of information systems that support the agency’s operations and assets, of the
            information security risks associated with their activities, as well as their
            responsibilities in complying with agency policies and procedures. FISMA also
            requires that the CIO train and oversee personnel with significant responsibilities
            for information security.

      Progress to Date:
            The Board requires all employees and contractors to take an annual security
            awareness training and quiz. The quiz reinforces security articles posted
            throughout the year on the Board’s internal website. During the past year, the
            ISO upgraded the training and quiz to an interactive, computer based system that
            requires the user to be connected to the Board’s network to participate. Upon
            completion of the security awareness quiz, employees are required to
            acknowledge that they will abide by all Board policies and rules that apply to the
            Board’s IT resources.

      Work to be done:
            In our 2007 FISMA report, we found that the ISO had developed guidance
            regarding the identification of personnel with significant responsibilities for
            information security, and had outlined a minimum set of training that staff should
            receive based on their role. The ISO is currently conducting a survey of training
            taken by individuals with significant security responsibilities. We will review the
            Board’s progress in identifying and providing training to individuals with
            significant security responsibilities as part of our future security control reviews.

             As previously discussed in the Policies and Procedures section, the Board
             continues to develop policy and procedures for safeguarding PII, and during the
             past year issued two new management policies that address privacy and
             information security issues. The Board plans to develop an education/training




                                           15 of 21
             program to assist in implementing the policies and procedures. We will review
             the education/training program as part of future FISMA related audits.

Detecting, Reporting, and Responding to Security Incidents

      Requirement:
            FISMA requires agencies to develop procedures for detecting, reporting, and
            responding to security incidents. The procedures should include steps to mitigate
            risks from security incidents before substantial damage is done, and to notify and
            consult with the United States Computer Emergency Readiness Team (US-
            CERT), appropriate law enforcement agencies, and relevant OIGs. US-CERT has
            also established requirements for incident reporting, which include priority levels
            for categories of incidents and the timeframes for reporting each priority level.

      Progress to Date:
            The ISO continues to issue policy and procedures to inform employees of their
            responsibilities for reporting incidents. During the past year, the ISO updated the
            Information Security Incident Handling Guide and issued a standard template
            form to document a suspected or confirmed theft or loss of any computers, mobile
            devices, data storage devices or media, and restricted documents.

             To reinforce employees’ responsibilities, the ISO continues to post articles on this
             topic on the Board’s website as part of security awareness training. The most
             recent Security Awareness Quiz included a review of the Permissible-Use and
             Privacy Policy, Information Classification & Handling Guide, and Security
             Incident Handling Guide.

      Work to be done:
            The Board’s security program requires system owners either to complete a
            Privacy Impact Assessment (PIA) as part of the planning process or to obtain a
            determination from the Board’s Legal Division that a PIA is not required. To
            assist system owners, the Legal Division has developed draft guidance that
            outlines the PIA requirements for those systems with PII. The guidance consists
            of two parts: a Frequently Asked Questions section and a Privacy Impact
            Assessment Questionnaire (PIAQ) that staff responsible for the system will fill
            out for those systems that require a PIA or are subject to the requirements of the
            Privacy Act. The information provided in the response to the PIAQ is used to
            prepare the PIA. We will continue to review the Board’s actions to complete and
            implement the guidance as part of future security control reviews.

             We will continue, as part of our ongoing FISMA-related audit work, to review
             how the Board handles information security incidents to ensure that incidents at
             the Board and the Reserve Banks continue to be reported to US-CERT pursuant to
             the relevant requirements.




                                           16 of 21
Continuity of Operations Plans and Procedures

      Requirement:
            FISMA requires that agency information security programs include plans and
            procedures to ensure continuity of operations for information systems that support
            the agency’s operations and assets. OMB’s FISMA reporting guidance also
            indicates that contingency planning is a requirement for certification and
            accreditation, with annual contingency plan testing required thereafter.

      Progress to Date:
            The Board continues to conduct semiannual contingency testing. Divisions
            participate in the semiannual contingency tests and the ISO uses the Board’s
            application inventory to track the systems that have been tested. During the past
            year, the Board continued to update equipment at its contingency site, and
            mitigate the risks that were observed during recent national disasters.

      Work to be done:
            The Board conducted a contingency test in September 2008. However, the prior
            scheduled contingency test was cancelled due to the exigencies of the economic
            situation at the time. The CIO based her decision on the circumstances that the
            Board may have needed, at any time, all resources that could be available. If the
            semiannual contingency testing becomes burdensome, the Board may want to
            consider smaller, more focused contingency tests.

             To help ensure that the contingency tests continue to provide value to the Board,
             the CIO and ISO (in conjunction with Board staff responsible for contingency
             planning) will need to ensure that the tests continue to be rigorous, that
             participants are challenged by the exercises, and that the participants do not
             become complacent. In addition, although not a requirement of SP 800-53 for
             moderate rated systems, the Board may wish to consider capacity planning so that
             necessary capacity for information processing, telecommunications, and
             environmental support exists during crisis situations. We will continue to monitor
             the contingency tests as part of our ongoing FISMA work.




                                          17 of 21
                                                                               APPENDIX 2




                      BOARD OF GOVERNORS OF THE FEDERAL RESERVE SYSTEM
                             DIVISION OF INFORMATION TECHNOLOGY




DATE:      September 19, 2008
TO:        Ms. Elizabeth A. Coleman
FROM:      Maureen Hannan /signed/
SUBJECT:   Comments on the Office of Inspector General’s 2008 Review of the Board’s
           Information Security Program


        Thank you for the opportunity to comment on the Office of the Inspector General’s
(OIG’s) review of the Board’s information security program. We are pleased that your
assessment of the program continues to recognize that our information security policies and
processes are FISMA-compliant and that we continue to enhance the program. As noted in your
report, we continue to improve and enhance our security policies and procedures, tracking of
remediation action, and security awareness training. We maintain an accurate inventory of all
systems and have performed certification and accreditation reviews for each system. We
continue to strengthen configuration management processes and maintain an effective layered
security model as demonstrated by our most recent independent verification and validation
exercise.

       We concur with the recommendations to improve the risk assessment and control testing
processes. These recommendations are consistent with our own self-assessment of the
information security program and our plans to improve the program. We plan to work closely
with system owners over the next year to ensure risk assessments are comprehensive and we are
evaluating tools that may be employed to assist system owners perform and maintain risk
assessments. We have also expanded our information security compliance unit and will be
enhancing our control testing processes.




                                           19 of 21
                                                                               APPENDIX 3



Appendix 3 – Principal Contributors to the Report
Peter Sheridan, Audit Manager

Richard Allen, IT Auditor

Robert Delgesso, IT Auditor

Satynarayana-Setty Sriram, IT Auditor

Andrew Patchan, Jr., Assistant Inspector General for Audits and Attestations




                                            21 of 21
